No. 20A87

THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NEW YORK,

Applicant,
v.
ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF NEW YORK,
Respondent.
CERTIFICATE OF COMPLIANCE
I, Anthony T. Caso, a member of the Bar of this Court and counsel for the
amicus on the accompanying Motion by Center for Constitutional Jurisprudence for
Leave to (1) File Amicus Curiae Brief, with Attached Brief in Support of Applicant,
and (2) to Do So without Ten Days’ Advance Notice to the Parties, certify under Rule
33.1(h) of the Rules of this Court that the motion contains 344 words and the brief
contains 5,153 words, excluding the parts that are exempted by Rule 33.1(d).

/s/ Anthony T. Caso
Anthony T. Caso

